U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




              PUBLIC
             RELEASE


                  INTERNATIONAL TRADE
                       ADMINISTRATION

          Improvements Are Needed in ITA's
                Management of Interagency
             and Other Special Agreements

        Inspection Report No. IPE-10752 / September 1998




            Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                Final Report IPE-10752
Office of Inspector General                                                                                        September 1998


                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE                        ....................................................1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

I. ITA Needs to Develop and Implement Guidelines
   to Address Deficiencies in Its Agreements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

       A. Legal Authority for Agreements Should Be Appropriately Cited . . . . . . . . . . . . . . . . . . 5
       B. Budget Review of Economy Act and Joint Project Authority Agreements
          Should Be Strengthened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
       C. Economy Act Requirements for a Determination and Finding Should Be Followed . . . . 6
       D. Legal Review Process Could Be Strengthened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
       E. A System to Recover the Full Cost of Agreements Must Be Developed
          and Enforced . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
       F. Termination Dates or Review Periods are Not Always Defined . . . . . . . . . . . . . . . . . . 10
       G. Implementation of Guidelines Should Be Transmitted Agency-wide . . . . . . . . . . . . . . 11

II. USEACs Should Use Agreements More Consistently . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.        ITA Should Develop a Centralized Database of Agreements                               . . . . . . . . . . . . . . . . . . . 13

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

Appendix A: ITA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Appendix B: Office of General Counsel Comments on Draft Report . . . . . . . . . . . . . . . . . . . . 20
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


                                   EXECUTIVE SUMMARY

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others (reimbursable agreements), acquiring work from others (obligation
agreements), or coordinating complementary programs without the transfer of funds (memoranda
of understanding or agreement, also referred to as unfunded agreements). These agreements can
be between Commerce Department entities; or between one Commerce unit and another federal
agency, a state or local government agency, a university, a not-for-profit organization, or a
private party. They involve a significant amount of federal resources, but are not normally subject
to the same controls as traditional procurement contracts, grants, or cooperative agreements.

The International Trade Administration uses such agreements to carry out its mission to develop
and implement bilateral, multilateral, and regional economic policies, strengthen the export
competitiveness of U.S. industries, administer the antidumping and countervailing duty laws of the
U.S., and help U.S. exporters compete in a global economy. ITA enters into its agreements with
other federal agencies, states and local governments, and local or regional international trade
organizations. Agreements are one method for ITA to formally agree to share information,
provide needed services, or coordinate its programs to optimize the benefits from its export trade
partner agencies or multiplier organizations. If properly monitored and controlled, agreements
are necessary and beneficial to define the roles and responsibilities of each of the parties so that
the greatest return is realized from similar or complementary programs.

This is one report in a series to be issued as part of the Office of Inspector General’s
Department-wide review of agreements. The purpose of our inspection was to evaluate policies,
procedures, and practices being followed by the bureau in its preparation, review, and
management of reimbursable, obligation, and unfunded agreements. Overall, we found that ITA
uses agreements to support its mission by acquiring and/or exchanging data or services,
conducting joint statistical agreements, and acquiring information technology. However,
improvements must be made in the agreements themselves, the review process, the policies that
govern obligation and unfunded agreements, and the tracking of agreements.

During our review of ITA agreements, we made the following observations:

1. ITA lacks formal, written guidelines and policies to guide its bureau in undertaking and
   formulating interagency agreements. Although ITA program managers and administrative
   staff have operated under informal guidance, the lack of a written set of guidelines has
   resulted in many agreements being improperly handled. This includes a lack of proper legal
   authority citations, incomplete documentation to support the agreement’s resources and scope
   of work, and failure to recover full costs, where appropriate (see page 4).




                                                 i
U Department of Commerce
U.S.                                                                            Final Report IPE-10752
Office of Inspector General                                                             September 1998


2. ITA’s U.S. Export Assistance Centers (operated by the U.S. Foreign and Commercial
   Service’s Office of Domestic Operations) should use agreements more consistently.
   Based on information provided to us or gained through interviews, we found inconsistencies
   in the perceived need for formal agreements between the USEACs and their state and local
   trade partners (see page 12).

3. ITA should develop a centralized database of agreements. ITA’s lack of a centralized
   database of all the agreements it has in effect prevents its senior officials and program
   managers from having a complete picture of how the agency’s resources are being used. We
   believe that a central database of all types of agreements would be a useful management and
   administrative tool, providing basic information, such as how many agreements exist, what
   agencies and other parties are involved, and total funding involved in agreements, to help
   better define performance measures and demonstrate results (see page13).

On page 15, we offer a series of recommendations to address our concerns.



In its written response to our draft report, ITA concurred with most of our findings and
recommendations. ITA acknowledged the need to develop formal guidelines for agreements,
ensure appropriate citation of legal authority, provide sufficient budget review of Economy Act
and Joint Project Authority agreements, strengthen its legal review process, establish review
periods and review/termination dates, and establish and maintain a centralized database. ITA did
not agree with our recommendation that ITA should prepare determination and finding statements
(D&Fs) for all agreements that cite the Economy Act as legal authority. We maintain that ITA
must prepare D&Fs for Economy Act agreements to comply with the FAR as presently written
and implemented. ITA also did not agree with our recommendation that ITA recover full costs
for Economy Act agreements. We reiterate our position that the Economy Act itself calls for
agencies to recover not only direct costs attributable to providing the goods or services ordered
but also those indirect costs that bear a significant relationship to providing the goods or services.
Although ITA differed as to the severity of the issues supporting these recommendations, it will
evaluate the steps necessary for preparing D&Fs and will also examine its cost recovery practices.
Prior to the completion of our draft report, ITA began an internal review of ITA agreements. We
support ITA’s efforts to identify actions to further improve the agreements, the approval process,
and the tracking system.

In its written comments to our draft ITA report, the Office of General Counsel agreed with the
formal recommendations in our report and is working with ITA to resolve the issues identified.




                                                  ii
U Department of Commerce
U.S.                                                                                         Final Report IPE-10752
Office of Inspector General                                                                          September 1998


                                               INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, the Office of
Inspector General conducted an inspection of ITA’s management of interagency and other special
agreements during the period October 3 to December 18, 1997. The inspection was conducted as
part of a larger Department-wide review of these agreements. This inspection was
conducted in accordance with the Quality Standards for Inspections issued by the President’s
Council on Integrity and Efficiency.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also
done to detect and prevent fraud, waste, and abuse and to encourage effective, efficient, and
economical operations. By highlighting problems, the OIG intends to help managers move
quickly to address those identified during the inspection and avoid their recurrence. By the same
token, inspections may also highlight effective programs or operations, particularly if they may be
useful or adaptable for agency managers or program operations elsewhere.

                                           PURPOSE AND SCOPE

Interagency and other special agreements are mechanisms for federal agencies to define terms for
performing work for others (reimbursable agreements), acquiring work from others (obligation
agreements), or coordinating complementary programs without the transfer of funds (memoranda
of understanding or agreement, also referred to as unfunded agreements). These agreements
involve a significant amount of federal resources, but are not subject to the same controls as
grants, cooperative agreements, or traditional procurement contracts.

We defined interagency and other special agreements as agreements that are not traditional
procurement contracts, grants, or cooperative agreements.1 For simplicity, we use the term
“agreement” to refer to the various types of interagency or other special agreements within our
scope. Agreements can include memoranda of agreement/understanding, purchase orders that
document both parties’ acceptance, or any other document that details the terms of an agreement
and the parties’ acceptance. Agreements can transfer funds from one party to the other, bind one


         1
            The Federal Grant and Cooperative Agreement Act of 1978 defines these types of agreements:
Procurement contracts—legal instruments “reflecting a relationship between the United States Government and a
State, a local government, or other [non-federal] recipient when . . . the principal purpose . . . is to acquire (by
purchase, lease, or barter) property or services for the direct benefit or use of the United States Government”
(31 U.S.C. § 6303); Grants—legal instruments used when “(1) the principal purpose of the relationship is to
transfer a thing of value to a State or local government or other recipient to carry out a public purpose of support or
stimulation authorized by a law of the United States . . . and (2) substantial involvement is not expected between
the executive agency and the State, local government, or other recipient when carrying out the activity
contemplated in the agreement” (31 U.S.C. § 6304); Cooperative agreements—differ from grants only in that
they are to be used when substantial involvement by the executive agency is expected (31 U.S.C. § 6305).

                                                          1
U Department of Commerce
U.S.                                                                                       Final Report IPE-10752
Office of Inspector General                                                                        September 1998


or both parties to commit funds to a project, or not involve any resources.

This report is part of a series of reports to be issued on our Department-wide review of
agreements. The purpose of the inspection was to evaluate policies, procedures, and practices
being followed at both ITA headquarters and field locations in carrying out their responsibilities
related to these agreements. We also evaluated substantive issues, such as the relationship of the
agreements to ITA’s mission and whether the agreements are being used to circumvent
procurement or financial assistance processes. At the time of our inspection, ITA had 164
agreements in effect, 73 of which we reviewed.

                                              BACKGROUND

ITA’s principal mission is to expand the export potential of U.S. companies and enforce U.S.
import laws and regulations. ITA accomplishes its trade mission through three of its operating
components: the U.S. and Foreign Commercial Service (US&FCS), Market Access and
Compliance (MAC), and Trade Development (TD). Among their other trade-related tasks, these
units collect and distribute information on foreign markets that hold export potential for U.S.
firms, analyze economic and financial data from foreign trade ministries and other sources,
support U.S. trade policy development, counsel U.S. exporters on market opportunities overseas,
and offer trade-related services and trade events/missions to help U.S. exporters compete in
foreign markets. A fourth component of ITA, the Import Administration (IA), administers U.S.
antidumping and countervailing duty laws.

Table 1: Summary of ITA’s FY 1997 Resources and Agreements
                                                                             Agreements

                          Base                      Reimbursable             Obligation       Unfunded
                         Budget
                        Authority                             Value               Value                     Total
   Operating Unit        ($000)        Staffing    No.        ($000)       No.    ($000)         No.         No.

 Executive Direction
 and Administration        $ 11,480         143      21       $ 714.6       22   $12,706.2             0      43

 US&FCS                    160,147        1,305       9       3,315.8       21    14,226.1             56     86

 TD                          55,114         392       6       1,913.8        9       193.2              0     15

 MAC                         24,422         186       2         282.6       14       446.1              0     16

 IA                          26,917         304       0                0     4       354.6              0      4

 Total                    $278,080        2,330       38     $5,944.2       70   $27,926.2             56    164
Source of data: ITA’s Office of Administration and its program offices




                                                          2
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


During our Department-wide review of agreements, we attempted to identify the volume and
dollar value of agreements in each bureau. Table 1 illustrates the relative size of the ITA
operating units (including their headquarters staff) and the respective number and value of all
agreements, including those that do not involve a transfer of funds.

ITA’s agreements are primarily entered into with other federal agencies and are heavily oriented
toward obligation agreements. Over 40 percent of the value ($11.8 million) of ITA’s obligation
agreements is represented by one agreement with the State Department to acquire administrative
services for ITA’s US&FCS offices located overseas. The obligation agreements are generally for
the procurement of financial and general support services and trade data, and personnel details.
The majority of US&FCS’s agreements are memoranda of understanding issued under
Commerce’s Joint Project Authority (15 U.S.C. § 1525) for Export Assistance Centers collocated
with their federal and non-federal trade partners. The reimbursable agreements (as authorized
under the Economy Act, 31 U.S.C. § 1535) are generally entered into: (1) to provide services to
other Commerce bureaus, such as through ITA’s Telecommunications Center and its training
center; (2) to conduct trade programs for other federal agencies, such as USAID and the
Environmental Protection Agency; and (3) to support other Commerce agencies overseas for
fisheries trade and standards programs (National Marine Fisheries Service and the National
Institute for Standards and Technology).




                                                 3
U Department of Commerce
U.S.                                                                           Final Report IPE-10752
Office of Inspector General                                                            September 1998


                           OBSERVATIONS AND CONCLUSIONS

I. ITA Needs to Develop and Implement Guidelines
   to Address Deficiencies in Its Agreements

Our review revealed that ITA lacked formal written guidelines for undertaking agreements. The
only guidance ITA has is an informal understanding that all agreements involving funding transfers
must first be cleared through ITA’s Office of Financial Management (OFM), which, upon
approval, will then forward the agreements to the Department’s Office of General Counsel (OGC)
for legal review and clearance.

This lack of guidance is reflected in the varying degrees of completeness in the agreement
documents. For example, ITA’s reimbursable agreements with USAID covered all of the
necessary elements and had adequate supporting documentation. By contrast, other agreements
were merely a form-like transaction sheet listing the budget offices of the agreement participants,
the accounting codes, and the relevant statutory citation. Of the 73 ITA agreements we reviewed,
45 of them, or over 61 percent, had incomplete documentation.

For the reasons outlined below, ITA needs to develop and implement comprehensive bureau-wide
policies and procedures for undertaking and formulating its agreements. Without guidelines for
executing agreements, ITA is vulnerable in many ways. For example, we found that ITA has
agreements that lack the signatures of proper officials, and thus may not be legally binding on the
other party. Furthermore, according to ITA officials, ITA has no policy to ensure that it recovers
full costs on reimbursable agreements. In developing these policies and procedures, ITA should
ensure that it addresses key elements in the agreement process: completeness of content;
budgetary, procurement, and legal reviews; and full cost recovery. In addition, ITA program
managers need to conduct periodic programmatic reviews of agreements.



In its written response to our draft report, ITA acknowledges the need to develop formal
guidelines for agreements. ITA recognized that its existing guidance is minimal, out-of-date, and
requires revision. ITA has been conducting an internal study of its agreements process during
1998 and has reached findings similar to those in our report. ITA states that it has drafted a basic
two-page “how to” guide that includes sample formats for all types of its agreements, explains
applicable authorities, delineates signature authorities, and outlines all necessary components for a
complete and thorough agreement.

ITA states that it also intends to revise ITA’s Administrative Instruction 3-1, “Reimbursable
Agreements,” to include all types of ITA agreements and issue new guidelines for review and
clearance of all agreements beginning in the first quarter of fiscal year 1999. Once completed,
ITA plans to distribute this guidance agency-wide and disseminate it through its on-line network.


                                                 4
U Department of Commerce
U.S.                                                                                           Final Report IPE-10752
Office of Inspector General                                                                            September 1998


Finally, ITA states that the steps identified above, in conjunction with a formalized clearance
process, will address our concerns. These actions satisfy our recommendation.

A. Legal Authority for Agreements Should Be Appropriately Cited

In our review of ITA’s agreements, we found that the legal authority for an agreement was not
always cited. In addition, there were inconsistencies in the citation of legal authority: some cited
a Comptroller General Ruling, other agreements cited the title and section from the U.S. Code,
while still others would give the title of the authority in addition to the citation, if not a full
definition of the authority.

ITA commonly uses two general authorities to enter into formal relationships with federal and
non-federal parties. The Department’s Joint Project Authority (15 U.S.C. §1525) is one of the
most frequently cited authorities for ITA agreements; it authorizes Commerce agencies to enter
into mutually beneficial projects with other governmental agencies, nonprofit organizations and
research organizations. The costs of these joint projects are to be apportioned equitably. The
Economy Act (31 U.S.C. §1535), another authority used by ITA, allows agencies to transfer and
receive funds from other federal agencies for necessary projects.

Citation to proper legal authority is important because the type of authority chosen for a
particular agreement affects the treatment of funds transferred under the agreement, including the
timing or disposition of receipts. For example, the Economy Act requires that all payments for
work or services performed be deposited to the appropriation or fund against which the charges
have been made. Under the Joint Project Authority, all payments are deposited into a separate
account that may be used to directly pay the costs of work or services performed, to repay
advances, or to refund excess sums when necessary.

The type of legal authority used also affects the period of availability for funds transferred under
an agreement. For Economy Act agreements, the period of availability of funds transferred may
not exceed the period of availability of the source appropriation. Accordingly, one-year funds
transferred by the requesting agency must be returned at the end of that fiscal year and
deobligated by that agency, to the extent that the performing agency has not performed or
incurred valid obligations under the agreement. When the agreement is based on some statutory
authority other than the Economy Act, the funds will remain payable in full from the appropriation
initially charged, regardless of when performance occurs. The funds are treated the same as
contractual obligations, subject, of course, to the “bona fide needs” rule2 and to any restrictions in
the legislation authorizing the agreement. Therefore, it is necessary to determine the correct
statutory authority for any agreement, in order to apply the proper obligational principles.


         2
          The bona fide needs rule states that a fiscal year appropriation may be obligated only to meet a
legitimate, or bona fide, need arising in, or in some cases arising prior to but continuing to exist in, the fiscal year
for which the appropriation is made.

                                                           5
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


B. Budget Review of Economy Act and Joint Project Authority
   Agreements Should Be Strengthened

Currently, the OFM budget division staff reviews agreements to ensure that they are consistent
with ITA’s statutory authorities, mission, and programmatic policy. The OFM budget officer
stated that the budget staff reviews the agreements to see that (1) they comply with existing
appropriations law and ITA budget policies, (2) they include budget guidance for funds transfers,
and (3) ITA has the statutory authority to conduct the work. They also ensure that the financial
aspects of the agreements are proper, including the availability of ITA funds for an obligation or
joint project agreement or the appropriate fiscal funding information for a reimbursable
agreement. The budget division staff then assigns an account number to the agreement, which
facilitates the collection or expenditure of resources associated with the agreement.

It is also critical that the review by budget staff ensures that the draft agreements include
estimates of project costs. If the agreement is authorized under the Economy Act, the document
must include total project costs to ensure full cost recovery, as required by the statute, OMB
Circular A-25 on user fees, and the Department of Commerce Accounting Principles and
Standards Handbook. If the project is performed under the Joint Project Authority, the
agreement should not only include project costs but also indicate the contributions of each
organization and demonstrate that the way in which the costs are apportioned is equitable in
relation to the benefits received.

Many of the agreements we reviewed had only cursory or no detailed budget estimates. For
example, 38 of the 73 agreements we reviewed were joint project agreements that failed to
indicate the contributions of each party. These agreements support the operations of US&FCS
Export Assistance Centers collocated with their trade promotion partners. A joint project
agreement may be appropriate under these circumstances because US&FCS is supposed to work
closely with its partners toward the common goal of promoting U.S. trade. However, when a
particular agreement lacks a budget estimate showing each party’s contribution, there is no
documentation that the agreement meets the Joint Project Authority requirement of equitable
apportionment of costs.



In its written response to our draft report, ITA concurred with our recommendation and stated
that it is in the process of issuing new guidelines to ensure sufficient budget review of Economy
Act and Joint Project authority agreements.




                                                 6
U Department of Commerce
U.S.                                                                                 Final Report IPE-10752
Office of Inspector General                                                                  September 1998


C. Economy Act Requirements for a Determination and Finding Should Be Followed

Of the ITA agreements we reviewed, we found none that were used to circumvent procurement
or financial assistance guidelines. Yet, obligation agreements citing the Economy Act as their
legal authority did not conform with requirements of the Federal Acquisition Regulation (FAR).
The FAR requires agencies that obtain goods or services from another Department through
Economy Act agreements to prepare a determination and finding (D&F), which documents that
“(1) use of an interagency acquisition is in the best interest of the Government; and (2) the
supplies or services cannot be obtained as conveniently or economically by contracting directly
with a private source.”3 Additional matters must be addressed in the D&F if the Economy Act
order requires contracting by the servicing agency.4 According to the FAR, a D&F “shall be
approved by a contracting officer of the requesting agency with authority to contract for the
supplies or services to be ordered, or by another official designated by the agency head.”5

ITA officials admitted that this is not being done. We believe that ITA should prepare D&Fs for
its Economy Act agreements with other agencies. Because ITA’s procurement contracts are
prepared by the National Oceanic and Atmospheric Administration’s Acquisitions Management
Division, this group should review the D&Fs, except for those agreements which would be
reviewed by the Department’s Office of Acquisition Management, as noted below.

In our June 1998 draft report to the Department,6 we recommend establishing a process whereby
all bureau Economy Act agreements above a certain dollar threshold are reviewed and approved
by the Department’s Office of Acquisition Management (OAM). We recommend that the
approval of OAM contracting officers who have training and experience in obtaining goods and
services, particularly through competitive bidding, and are independent of the bureaus’
contracting staff, will help ensure that the federal government obtains goods and services from the
most cost-effective source. ITA officials should work with OAM to develop a process for
appropriate review of D&Fs for all of its Economy Act agreements, with NOAA’s procurement
staff reviewing all D&Fs at or below the dollar threshold set by the Department, and OAM
reviewing all D&Fs that exceed the threshold.

The Economy Act also applies to orders between major organizational units within an agency, but




        3
            FAR § 17.503(b).

        4
            FAR § 17.503(b).

        5
            FAR § 17.503(c).

        6
         Draft Inspection Report: Office of the Secretary—Interagency and Other Special Agreements Require
Better Management and Oversight, IPE-10418, June 22, 1998.

                                                     7
U Department of Commerce
U.S.                                                                         Final Report IPE-10752
Office of Inspector General                                                          September 1998


the FAR specifies that agency regulations will govern these intra-agency transfers.7 Commerce
does not have any internal guidance implementing this section of the FAR. Therefore, there is no
standard for documenting that transfers within Commerce are the most economical solution and
are not in competition with the private sector. We have recommended that the Department
develop a standard method of documenting this determination for all intra-agency Economy Act
transfers. In the meantime, we believe that ITA as the ordering agency should prepare a written
justification that supports its determination that its purchases from other Commerce entities
comply with the Economy Act.



In its written response to our draft report, ITA stated that it will evaluate what is necessary to
prepare a D&F for Economy Act agreements. ITA states that most of their Economy Act
agreements fall below the $250,000 threshold recommended by the National Performance Review
for Economy Act D&F statements. ITA further states that it “will meet the regulatory
requirements of the FAR for Economy Act D&F statements” when it receives expected direction
on the review and approval process by the Department’s Office of Acquisition Management.

OIG Comments. We disagree with ITA’s response. The “recommendation” by the NPR for
Economy Act D&Fs is currently only that — a recommendation. The FAR, as currently written,
is the controlling instrument and it continues to state that “Each Economy Act agreement shall be
supported by a Determination and Finding (D&F).”8 OGC agrees with our position that ITA
must comply with existing guidelines for Economy Act D&Fs as contained in the FAR, and for
intra-agency agreements, those guidelines contained in the Accounting Principles Handbook (at
Chapter 18.12, Section 6.01, Reimbursable Agreements).

D. Legal Review Process Could Be Strengthened

We found that there is no formal process for the legal review of agreements. Legal review is
necessary to protect the interests of the Department, ensure that the agreement and its supporting
documentation are complete, ascertain that the legal authority supporting the agreement is
appropriate, and that the agreement is justified. OGC attorneys who are in the position to review
and approve the draft agreement documents stated that they believe they see most, if not all, of
ITA’s agreements. However, because many agreements lacked basic requirements, such as a
citation to legal authority, it was apparent from the documents alone that they were not all
reviewed by OGC.




       7
           FAR § 17.500(a).

       8
           FAR § 17.503(a)

                                                8
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


ITA needs to develop written guidelines for legal review of agreements that its headquarters and
field units must follow when developing or managing an agreement. In our June 1998 draft report
to the Department, we recommend that OGC develop guidelines for its legal review of
agreements, including what minimal information and documentation are necessary. Other
guidelines may include streamlining the process of legal review of agreements, and setting certain
criteria for OGC review of ITA agreements. ITA works with two OGC legal entities on the
review of proposed agreements. The Chief Counsel for International Commerce conducts a legal
review with ITA policy officials to ensure that the proposed agreements are within ITA’s mission
and its appropriations and statutory authority. The Assistant General Counsel for Administration
(General Law Division) then conducts a complementary review of the agreements to ascertain
compliance with administrative law. Together, these two offices of OGC can provide a thorough
legal review for most ITA agreements. We suggest, however, that there may be some agreements
which may need review by only one of these entities. For example, those agreements that reach a
certain dollar threshold, include irregular terms and conditions, or involve a private or foreign
party may require legal review by both offices, while others could be reviewed by the Chief
Counsel for International Commerce. We recommend that ITA officials continue to work closely
with OGC to develop appropriate legal review guidelines for both the Assistant General Counsel
for Administration and the Chief Counsel for International Commerce.



In its written comments to our draft report, the chief of OGC’s General Law Division states that
the Chief Counsel for International Commerce, who is considered part of OGC, has no
responsibility for review and approval of Economy Act and Joint Project Authority agreements.

OIG Comments. However, we continue to believe the Chief Counsel for International Commerce
should continue to have an important role, complementary to that of the General Law Division, in
the review of ITA agreements. We reiterate that it is important that both entities continue to
work with ITA during the review of agreements and as ITA develops its guidelines and
procedures for handling its agreements.

E. A System to Recover the Full Cost of Agreements
   Must be Developed and Enforced

One of the areas of weakness found during our Department-wide review of agreements is that
Commerce agencies frequently do not recover their full costs of performing work covered by an
Economy Act agreement. Because of time constraints, we did not conduct an independent
analysis to determine whether ITA is recovering its full costs. However, we did interview
cognizant ITA officials about this topic.

These officials do not believe that ITA agreements recover full costs, nor do they believe that they
should. The explanation given for this view is that the salaries of ITA staff performing the work
under agreements are already covered by ITA’s base appropriations. ITA officials stated that the

                                                 9
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


bureau does not have a cost recovery policy, and they believe that it is only appropriate to recover
the marginal cost incurred (e.g., travel or other non-personnel costs) in performing reimbursable
work. Furthermore, it was stated that ITA does not have a cost allocation system with which it
can easily capture such information.

We do not believe that ITA’s policy or practice on cost recovery is appropriate. The Economy
Act requires agencies to recover the actual cost of goods or services provided. The term “actual
cost” includes all direct costs attributable to providing the goods or services ordered, as well as
indirect costs funded out of the performing agency’s currently available appropriations that bear a
significant relationship to providing the goods or services. For ITA to enter into an agreement
and undercharge a sponsoring agency would have the effect of augmenting that agency’s
appropriation. Were ITA to undercharge, it would improperly deplete its appropriations to the
benefit of the other party and compete unfairly with the private sector. ITA, therefore, needs to
develop a clear policy on, and establish a mechanism for, allocating and fully recovering its costs
in conjunction with performing work under agreements.



In its written response to our draft report, ITA states that although it agrees that ITA should
examine its cost recovery policies and practices, it disagrees with the conclusions we reached
from our interviews with ITA officials, individuals who ITA states may or may not be familiar
with cost recovery issues. Furthermore, ITA states that, based on its examination of actual
Economy Act agreements, it found that:

 “(1) ITA’s use of reimbursable agreements limits the possibility of ITA augmenting its
appropriation because agencies using reimbursable agreements operate under a full cost recovery
system utilizing project codes; and

(2) The reimbursable agreement serves as a safeguard against diverting resources appropriated for
ITA since it deals with actual cost rather than estimated cost.”

OIG Comments. We still disagree with ITA’s response. The “full cost recovery” cited above in
(1), only captures ITA’s direct cost of the reimbursable work performed. It does not include the
indirect costs funded out of ITA’s appropriation that are incurred to provide the goods or
services. We believe that ITA should thoroughly examine the issue of cost recovery during its
internal review of agreements and confer with appropriate departmental officials to reach a
uniform policy and guideline for handling this issue. We request the opportunity to review the
final policy and guidance.




                                                10
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998


F. Termination Dates or Review Periods are Not Always Defined

Some ITA agreements we reviewed did not define a termination date or review period. When the
stated performance period is undefined or indefinite, it is difficult to determine whether the
agreement is still valid and whether reassessment of the agreement ever occurred. In addition,
even if a need still exists, as time passes, critical features of the project, such as the level of
funding or other resources, may need modification. An ill-defined performance period may
ultimately result in the performance of work that is no longer mission-related, the waste of funds
and personnel, or the inequitable apportionment of project costs.

For example, the US&FCS district office in Nashville, Tennessee, established a branch office in
Knoxville, effective March 1990, before the present network of USEACs was established. With
the new USEAC structure, Knoxville is now a “spoke” office reporting to the Atlanta USEAC
“hub” site, not Nashville. Also, we found many agreements that had expired, some as recently as
June 1998, and others as early as March 1995, without a new agreement put in place, even though
the interagency relationship continued to exist.

Defining these relevant dates or time periods is important to ensure that agreements are properly
administered and kept up-to-date. All agreements should have a defined performance period with
a stated effective date, and when possible, a specific termination date. For agreements that
continue over an extended term where it is not feasible to define a termination date, the agreement
should have a provision for a periodic review and amendment by mutual consent of the parties.
We recommend that agreements are reviewed, revised, and renewed as appropriate, but at least
every three years.



In its written response to our draft report, ITA concurred with our recommendation.

G. Implementation of Guidelines Should be Transmitted Agency-wide

Once completed, ITA should distribute this guidance and other information relevant to preparing
and processing agreements through its intranet and present the information at ITA conferences.
Any subsequent changes in federal, departmental, or agency regulations or procedures and
applicable laws should also be widely distributed. Finally, ITA should provide training on how to
properly prepare and process agreements to program and administrative staff responsible for
agreements. Such training should also cover appropriate cost allocation and cost recovery
methods.



In its written response to our draft report, ITA concurred with our recommendation.


                                                11
U Department of Commerce
U.S.                                                                                   Final Report IPE-10752
Office of Inspector General                                                                    September 1998


II.      USEACs Should Use Agreements More Consistently

For agreements entered into by US&FCS’s U.S. Export Assistance Centers (USEACs)9, located
in nearly 100 cities throughout the United States, the process for creating interagency agreements
has sometimes worked well, particularly for the “hub” sites where US&FCS is usually collocated
with other federal agencies. For example, the core agreement to establish the USEAC network
nationwide was developed through the participation of the USEAC partner agencies: US&FCS,
SBA, Ex-Im Bank, and USAID. This 1995 agreement was carefully crafted in interagency
meetings and with legal and procedural clearances by all parties before it was put into effect.
Individual USEACs then execute agreements with their collocated non-federal trade promotion
partners (such as state and local economic development groups, and world trade associations), to
document what office services or expenses (such as rent, facsimile, photocopiers, telephone, or
reception services) each organization will pay for. Agreements therefore serve important
programmatic and administrative functions.

With the help of OGC, US&FCS’s Office of Domestic Operations drafted “boilerplate” language,
which is used by all USEACs for the basic operating agreements with their local partners. The
draft language for the agreements specifies the programmatic and administrative responsibilities as
well as how much money each contributes to the agreement. While the draft language appeared
to cover the essentials for a joint project, the content of the actual agreements frequently lacked
specific information or supporting documentation. The draft agreements, because they are brief in
length and generally follow the “boilerplate” model constructed by US&FCS and OGC, are
forwarded from the USEACs to the Office of Domestic Operations, and then to OGC for
clearance, without the need for the Chief Counsel for International Commerce to review them.

Some USEAC sites, however, are operating under informal arrangements that are not
documented in written agreements and are not always forwarded to OGC for review and
clearance. In telephone interviews with US&FCS officials in the USEACs and US&FCS
Regional Offices, a different picture emerged concerning their handling of agreements:

•     There are inconsistencies in how individual USEACs process their agreements. Although
      some officials said that they send all of their agreements through US&FCS headquarters and
      OGC for review and clearance, other field officials were not certain that this was actually
      happening.




         9
          USEACs were created as part of the National Export Strategy, developed by the Trade Promotion
Coordinating Committee. The USEACs, with a national network of “hub” sites staffed by representatives from
US&FCS, SBA and Ex-Im Bank, linked to “spoke” sites of a few US&FCS staff, offer “one-stop” shopping for
small-to-medium U.S. exporters seeking export counseling, information, financial assistance, and other trade
promotion services.

                                                      12
U Department of Commerce
U.S.                                                                            Final Report IPE-10752
Office of Inspector General                                                             September 1998


•      One of the Eastern Region USEAC directors said that he seldom entered into formal written
       agreements with his local trade partners because he finds this to be too constraining and time
       consuming given the time it would take to produce a written agreement and have it approved
       by the leadership of each participant. Instead, he stated that he relies on “informal
       agreements.”

•      The director for the US&FCS Eastern Region stated that he has not seen or initiated any
       agreements, but admitted that he needs to establish more relationships with his region’s trade
       partners and, thus, may use more agreements in the future, to undertake public-private export
       initiatives.

Participation by local organizations, particularly state and local governments and nonprofit trade
associations, is an essential part of the USEAC concept. Particularly because a boilerplate
agreement has been created to simplify the process, USEACs should regularly pursue written
agreements with their local trade promotion partners. Negotiating and formalizing existing or
future relationships help define each partner’s responsibilities and expectations. USEACs can
then have a firmer basis on which to rely for the assistance and support of its partners.


In its written response to our draft report, ITA agreed with our observations and conclusions on
the USEACs’ use of agreements for collocation arrangements with their local trade partners, and
the need for better documentation and legal review of these and other agreements as well as better
controls and oversight regarding review and approval of these agreements. ITA plans to address
these concerns by not allowing the transfer of funds or the initiation of activities between parties
until the CFO approves the agreement by signature. ITA field units will not be allowed to execute
any terms in agreements without CFO approval.


III.      ITA Should Develop a Centralized Database of Agreements

We found that ITA does not have a centralized database of its agreements. As a result, ITA
managers or officials cannot be confident that they are aware of all the agreements the agency
may have in effect. ITA officials acknowledged that having a central database of agreements
would be beneficial, especially since there is frequent turnover of ITA senior program officials.

From an administrative perspective, a central database of agreements should help ITA in
administering and maintaining its agreements. The FAR requires that the Department and its
bureaus maintain centralized files for contracts and grants in order to provide better control and
oversight. We believe that there is nothing unique about agreements that would preclude them
from being similarly reviewed and maintained. By having relevant dates in the system, program
managers could easily identify which agreements are due for renewal, termination, or review.
Also, officials could quickly respond to inquiries on particular agreements by accessing the system
by identifying number, project title, or contact name.

                                                   13
U Department of Commerce
U.S.                                                                           Final Report IPE-10752
Office of Inspector General                                                            September 1998


We believe that the creation of such a database of agreements for ITA would not only allow it to
track and manage its agreements, but it could also be a useful management tool for other
purposes. For example, the Government Performance and Results Act of 1993 requires federal
agencies to describe coordination and planning with other agencies on shared or similar functions
and programs. In July 1997, the House Science Committee criticized Commerce’s strategic plan
for failing to adequately discuss coordination of cross-cutting programs. The Department has
since included more information about program “linkages” in its strategic plan for 1997-2002.
For each strategic theme (economic infrastructure, science/technology/information, and resource
and asset management and stewardship), the Department describes several linkages with other
federal and non-federal parties that support these strategic themes. Basic information from a
departmental database of agreements, including those of ITA, could be used to further develop
these linkages.

During our review, ITA officials agreed that a database of summary information for each
agreement should be established and maintained, allowing ITA to quickly determine what
agreements exist and obtain agreement information. We believe that at least the following
summary information on each agreement should be stored in an electronic database: purpose or
title, participating parties, termination date, review period, funding information, legal authority,
and contact person or office. The database should also identify the type of agreement, such as
memoranda of understanding or agreement, reimbursable agreement, or obligation agreement.
This system could also be used to establish a document numbering system. Each entry would be
assigned a unique number, which would then be placed on the actual agreement and any related
documents, allowing ITA to better identify and track the physical documents.

In our June 1998 draft report to the Office of the Secretary, we recommend that the Department
develop Department-wide guidelines for developing, reviewing, and tracking agreements. We
have identified two options for creating the Department’s central list of agreements. First, the
Department could develop one standard system or database program that each bureau can access
to add, modify, or delete agreements. Alternatively, each bureau could maintain its own database
that is compatible with requirements specified by the Department. The Department would define
which data elements are required for a centralized list and then require the bureaus to periodically
provide the information electronically to be uploaded into the central list at the Department level.
We have requested that the Department inform us of its final decision on how it will implement
this recommendation.

We do not suggest that ITA delay its actions on creating a database until the Department
responds to our recommendation. Instead, we urge ITA officials to begin discussions immediately
with the Chief Financial Officer and Assistant Secretary for Administration to take the necessary
steps to develop the ITA database.




                                                 14
U Department of Commerce
U.S.                                                                          Final Report IPE-10752
Office of Inspector General                                                           September 1998




In its written response to our draft report, ITA concurred with our recommendation for a
centralized database of agreements.


                                   RECOMMENDATIONS

We recommend that the Under Secretary for International Trade take the necessary actions to:

1. Prepare internal ITA policies and procedures for ITA’s operating units that outline the steps
   for preparing and implementing agreements. In particular, the ITA guidance should:

   a. Require all ITA agreements to include at least the following items: citation of relevant
      legal authorities, applicable written justifications, signatures by the appropriate officials,
      total project costs, budget summaries, and termination dates and/or review periods. There
      should also be formal procedures that ensure agreements prepared by external parties
      contain all necessary information (see page 4).

   b. Direct the Office of Financial Management to review all ITA agreements to ensure funding
      availability and compliance with the federal, departmental, and ITA guidelines (see page
      6).

   c. Direct ITA’s Office of Administration to work with the Department’s OAM to develop a
      process for appropriate review of D&Fs for all of its Economy Act agreements with other
      agencies, with NOAA’s procurement staff reviewing all D&Fs falling below a dollar
      threshold set by the Department, and OAM reviewing all D&Fs that are at or above that
      threshold. Although a D&F is not required for Economy Act agreements within
      Commerce, ITA managers should be required to prepare a written justification that shows
      that the goods and services they are acquiring cannot be obtained as conveniently or
      cheaply from the private sector (see page 7).

   d. Include criteria for legal review of ITA agreements and ensure that all required legal
      reviews are completed before an agreement can be signed and implemented. This criteria
      should be established in conjunction with the Office of General Counsel (see page 8).

   e. Include a process for allocating costs on all agreements and attaining full cost recovery for
      Economy Act agreements (see page 9).

   f. Ensure that ITA agreements are reviewed, and revised or renewed, as appropriate, at least
      every three years (see page 11).


                                                15
U Department of Commerce
U.S.                                                                       Final Report IPE-10752
Office of Inspector General                                                        September 1998



2. Distribute relevant guidance and information for preparing and processing agreements through
   ITA’s intranet, and at appropriate ITA conferences. Any subsequent changes in federal,
   departmental, or agency regulations or procedures and applicable laws should also be widely
   distributed (see page 11).

3. Provide training to appropriate ITA staff on how to properly prepare, process, and administer
   agreements to all ITA program and administrative staff responsible for agreements. Such
   training should include the system and process for allocating costs and achieving full cost
   recovery, whenever appropriate (see page 11).

4. Establish a centralized system to adequately inventory, track, and control ITA’s agreements
   (see page 13).




                                               16
U Department of Commerce
U.S.                                                                Final Report IPE-10752
Office of Inspector General                                                 September 1998



                         Appendix A: ITA Response to Draft Report




                                           17
U Department of Commerce
U.S.                               Final Report IPE-10752
Office of Inspector General                September 1998




                              18
U Department of Commerce
U.S.                               Final Report IPE-10752
Office of Inspector General                September 1998




                              19
U Department of Commerce
U.S.                               Final Report IPE-10752
Office of Inspector General                September 1998




                              20
U Department of Commerce
U.S.                                                               Final Report IPE-10752
Office of Inspector General                                                September 1998


             Appendix B: Office of General Counsel Comments on Draft Report




                                          21
U Department of Commerce
U.S.                               Final Report IPE-10752
Office of Inspector General                September 1998




                              22
